TX

@OCKLE

. E-Mail Address:
Le ga 1B tt € fs contact@cocklelegalbriefs.com
st. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-802

DAVID EHRMAN, Individually and on
Behalf of All Others Similarly Situated,
Petitioner,

v.

COX COMMUNICATIONS, INC.; COXCOM, LLC;
and COX COMMUNICATIONS CALIFORNIA, LLC,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3297 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : \
Sa  C Ll Order Kh,
My Commission Expires Nov 24, 2020 G

Notary Public Affiant 39517

 
